No.

*' - ■ ft

IN THE SUPREME COURT
FOR THE UNITED STATES
ANDRES CHAVEZ,
Petitioner/Defendant,
filed
JUL 2 2 2020

V.

UNITED STATES OF AMERICA,
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
PETITION FOR WRIT OF CERTIORARI
Andres Chavez, pro-se
Register Number: 57654-177
FCI Texarkana
FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX 7000
Texarkana, TX., 2020.
1

received
JUL 3 0 2020

Uf\ 0

QUESTIONS PRESENTED
I. WHETHER CHAVEZ WAS DENIED DUE PROCESS WHEN HE
WAS MISLEAD INTO ENTERING A GUILTY PLEA; BECAUSE
COUNSEL FAILED TO REVIEW THE PSR WITH HIM AND
FAILED TO SUBMIT A SENTENCING MEMORANDUM?

3

LIST OF THE PARTIES
All parties appear in the caption of the case on the cover page.

2

TABLE OF CONTENTS

QUESTION PRESENTED.............................

3

TABLE OF AUTORITIES..............................

5

PETITION FOR A WRIT OF CERTIORARI.

6

OPINIONS BELOW

6

JURISDICTION

6

STATEMENT OF THE CASE

7

REASON FOR GRANTING THE WRIT
CONCLUSION

6
10

CERTIFICATE OF SERVICE

11

INDEX TO APPENDICES
APPENDIX “A
APPENDIX “B

4

TABLE OFAUTHORITIES
Cases:

page:

Estelle v. Gamble, 429 U.S. 97 (1975)

7

Jackson v. Reese, 608 F.2d 159 (5th Cir. 1975)

7

5

•..a2

STATEMENT OF THE CASE
On August 28, 2018, Chavez was charged in four counts in a sixteen
Count Sealed Indictment with two counts of Conspiracy to Possess with
Intent to Distribute a Controlled Substance (Violation of 21 U.S.C.
Section 846) and two counts of Possession with Intent to Distribute a
Controlled Substance (Violation of 21 U.S.C. Section 841(b)(1)(C).
Chavez plead guilty to one count (Count 15) of this Indictment at a rearraignment on April 2, 2019. With a criminal history score of 1, and a
resulting Criminal History Category of I, this resulted in a sentence
range of 262 to 327 months. At the Sentencing Hearing the Court
considered the objections on file, the facts of the case, and the 18 U.S.C.
Sect. 3553 factors on the record and sentenced Chavez to the sentencing
guideline range of240 months. Thereafter, the Fifth Circuit Court of
Appeals affirmed Chavez's conviction and sentence.

PRO-SE STANDARD OF REVIEW

Chavez’s pleadings are entitled to a liberal construction because he is a
pro se litigant. Jackson v. Reese, 608 F.2d 159, 160 (5th Cir. 1979) (“It
is axiomatic that courts are required to liberally construe pro se
complaints.”). See, also Estelle v. Gamble, 429 U.S. 97, 106 (1975)
(quoting Haines v. Kemer, ... explaining that the Court should construed
a pro se complaint to make the best arguments that the allegations
suggest.

I. CHAVEZ WAS DENIED DUE PROCESS WHEN HE WAS
MISLEAD INTO ENTERING A GUILTY PLEA; BECAUSE
COUNSEL FAILED TO REVIEW THE PSR WITH HIM AND
FAILED TO SUBMIT A SENTENCING MEMORANDUM

DISCUSSION
Relevant Facts:
On August 28, 2018, Chavez was charged in four counts in a sixteen
Count Sealed Indictment with two counts of Conspiracy to Possess with
Intent to Distribute a Controlled Substance (Violation of 21 U.S.C.
Section 846) and two counts of Possession with Intent to Distribute a
Controlled Substance (Violation of 21 U.S.C. Section 841(b)(1)(C).

Chavez plead guilty to one count (Count 15) of this Indictment at a re arraignment on April 2, 2019.
A Pre-Sentence Report was prepared which set the Base Offense Level
at 38. Chavez was given several two-point enhancements (4 points total)
as follows:
35. Specific Offense Characteristics: Pursuant to USSG Section
§2D 1.1 (b)(5), if the offense involved importation of methamphetamine
and Chavez is not subject to a mitigating role adjustment, increase by 2
levels. The methamphetamine possessed by Chavez was imported
directly from Mexico and the defendant did not receive a mitigating role
adjustment.
+2
36. Specific Offense Characteristics: Pursuant to USSG Section
§2Dl.l(b)(12), if the defendant maintained a premise for the purpose of
storing or distributing a controlled substance, increase by 2 levels. In

this case, Chavez maintained the premises located at 2109 Ruea Street in
Grand Prairie, Texas, for the storage and distribution of controlled
substances; therefore, 2 levels are added. +2
From this offense level Chavez was given a three-point credit for
acceptance of responsibility, bringing his total offense level down to 39.
With a criminal history score of 1, and a resulting Criminal History
Category of I, this resulted in a sentence range of 262 to 327 months
which was reduced to the statutory maximum sentence of 240 months.
The PSR was furnished to Chavez, defense counsel, and the Government
not less than 35 days before Sentencing. The Pre-Sentence Report was
served on Chavez’s Counsel on June 7, 2019. The sentencing hearing
was held on July 31, 2019.
In response to the PSR, Chavez made several objections: (1) Chavez
objected to the amount of methamphetamine attributed to him, (2) the
enhancement for importation. (3) the enhancement for maintaining a
premise for storing and distributing a controlled substance, (4) Chavez
claimed qualification for the “safety valve” consideration, (5) and
related lower offense levels and sentencing guideline range based on the
above objections. At the Sentencing
Hearing the Court considered the objections on file, the facts of the case,
and the 18 U.S.C. Sect. 3553 factors on the record and sentenced Chavez
to the sentencing guideline range of 240 months. Chavez timely
appealed, and his sentence and conviction were affirmed by the Fifth
Circuit Court of Appeals.
The Statutory Maximum in this case was 20 years (240 months); Chavez
was sentenced to 240 months, so it does not exceed the Statutory

9

Maximum. Chavez receive no benefits for his plea deal. Chavez was
misled into entering guilty plea; his counsel failed to review the contents
of the Presentence Report with him and request for a Rule 11(c)(1)(C)
plea; and counsel failed to submit a sentencing memorandum. Thus,
Chavez was denied Due Process of Law.

CONCULSION

For all the reasons stated in herein this Honorable Court should grant the
instant petition for writ of certiorari.

Dated:

■J/,

, 2020.
Respectfully Submitted,

Andres Chavez, p>ro-se

10

